HHS/OIG-Audit--"Review of the Center for Mental Health Services' Mental Health Clinical Training Program and Payback Requirements, (A-15-97-80001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Center for Mental Health Services' Mental Health Clinical
Training Program and Payback Requirements," (A-15-97-80001)
November 25, 1998
Complete Text of Report is available in PDF format
(1.44 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Substance Abuse and Mental Health Services Administration (SAMHSA) awards
grants to provide funding to individuals for graduate training or development
in psychology, psychiatry, nursing, and social work. Generally, trainees are
required to repay each month of financial support through an equal period of
service to underserved mentally ill populations in public facilities. If the
trainee fails to satisfy this service obligation, the trainee must repay the
Federal Government three times the cost of the traineeship plus interest. The
SAMHSA contracts with a private corporation to monitor and track the appointments
and payback activities of trainees. Our final report points out that the contractor
did not adequately fulfill this responsibility. The contractor did not identify
and refer for debt collection the trainees who did not satisfy their service
payback obligation. Also, the contractor did not audit and report on the service
payback status of trainees in debt collection. As a result collection actions
were not taken against trainees who owed the Federal Government approximately
$260,000. We recommended that SAMHSA ensure the contractor complies with contract
requirements, require the contractor to audit the status of the service payback
activities of all trainees, and implement procedures to refer trainees, who
default on their payback obligations, to the Office of Inspector General for
exclusion from participation in the Medicare and Medicaid programs. The SAMHSA
concurred with our recommendations.